OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

TRISHA MEGGS PATE
Bureau Chief, Criminal Appeals
ASHLEY B. MOODY

The Capitol
ATTORNEY GENERAL Tallahassee, Florida 32399-1050
STATE OF FLORIDA Telephone (850) 414-3300

Fax (850) 922-6674

 

October 29, 2020

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: Delmar Reinheimer v. State of Florida,
Case No. 20-6065

Dear Mr. Harris:

The State of Florida recently received a copy of the petitioner’s petition for writ of
certiorari. Please be advised that the State of Florida will continue to follow its
long held position on these matters and will respectfully decline to answer petitions
filed in non-capital cases unless the Court requests a response. If the Court
requests a response, the State of Florida will provide one.

Reeperelly submitted,
“ty Wy If . fA

TRISHA MEGGS PATE

Bureau Chief,

Tallahassee Criminal Appeals

Fla. Bar No. 0045489

(850)414-3300

cc: Valarie Linnen, Esq.
841 Prudential Drive, 12" Floor
Jacksonville, FL 32207
